No. 20A161
IN THE SUPREME COURT OF THE UNITED STATES
_________________
STATE OF OKLAHOMA, APPLICANT
v.
SHAUN MICHAEL BOSSE
(CAPITAL CASE)
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the MOTION OF THE UNITED STATES FOR LEAVE TO FILE A BRIEF AS AMICUS
CURIAE AND BRIEF FOR THE UNITED STATES AS AMICUS CURIAE
RESPECTING THE APPLICATION FOR A STAY, via email and first-class mail, postage
prepaid, this 17th day of May, 2021.
[See Attached Service List]

Elizabeth B. Prelogar
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
May 17, 2021

Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisory
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.

20A161
STATE OF OKLAHOMA
SHAUN MICHAEL BOSSE
FRANK SHARP HOLLEMAN
SONOSKY, CHAMBERS, SACHSE, ENDERSON & PERRY LLP
1425 K STREET, NW
SUITE 600
WASHINGTON, DC 20005
202-682-0240
FHOLLEMAN@SONOSKY.COM
MITHUM MANSINGHANI
SOLICITOR GENERAL
OFFICE OF THE OKLAHOMA ATTORNEY GENERAL
313 NE 21ST STREET
OKLAHOMA CITY, OK 73105
405-522-4392
MITHUN.MANSINGHANI@OAG.OK.GOV

VIA EMAIL

ZACHARY CHARLES SCHAUF
JENNER & BLOCK, LLP
1099 NEW YORK AVENUE, NW
WASHINGTON, DC 20001
202-637-6379
ZSCHAUF@JENNER.COM

VIA EMAIL

